No. 20-659

 

IN THE

Supreme Court of the United States

 

LARRY THOMPSON,
Petitioner,
v.
POLICE OFFICER PAGIEL CLARK, SHIELD #28472,
Respondent.

RULE 33.1(h) CERTIFICATE OF COMPLIANCE

 

As required by Supreme Court Rule 33.1(h), I certify that the Brief of
Constitutional Accountability Center as Amicus Curiae in Support of Petitioner
contains 7,684 words, excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed.on June 11, 2021.

Brian R. Frazelle
Counsel for Amicus Curiae
